Case: 19-2940

Document: 54

Page: 1

Date Filed: 06/05/2020

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
____________
No. 19-2940
____________
UNITED STATES OF AMERICA
v.
MICHAEL E. TORRES,
Appellant
____________
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Criminal No. 1-17-cr-00392-001)
District Judge: Honorable Yvette Kane
____________
Submitted Under Third Circuit L.A.R. 34.1(a):
April 23, 2020
Before: PORTER, RENDELL and FISHER
Circuit Judges
(Filed: June 5, 2020)
____________
Heidi R. Freese, Federal Public Defender
Frederick W. Ulrich
OFFICE OF THE FEDERAL PUBLIC DEFENDER
100 Chestnut Street
Suite 306
Harrisburg, PA 17101
Counsel for Appellant Michael Torres

1 a

Case: 19-2940

Document: 54

Page: 2

Date Filed: 06/05/2020

David J. Freed, United States Attorney
Carlo D. Marchioli,
OFFICE OF THE UNITED STATES ATTORNEY
228 Walnut Street, P.O. Box 11754
220 Federal Building and Courthouse
Harrisburg, PA 17108
Counsel for Appellee United States of America
____________
OPINION OF THE COURT
____________
PORTER, Circuit Judge.
After a bench trial, the District Court found Michael
Torres guilty of possessing a firearm as a convicted felon, in
violation of 18 U.S.C. § 922(g)(1). The District Court imposed
a fifteen-year mandatory-minimum sentence under 18 U.S.C.
§ 924(e) of the Armed Career Criminal Act (“ACCA”) because
it determined that Torres had three qualifying felony
convictions.
Torres raises two arguments on appeal. First, he
contends that the District Court erred by denying his motion to
suppress the firearm. Second, Torres argues that his prior
federal drug conspiracy conviction does not qualify as an
ACCA predicate offense because it encompasses his other two
substantive ACCA predicates. We will affirm. The firearm was
discovered during a valid investigative stop. And we will join
our sister circuits in holding that a drug conspiracy conviction
counts as an ACCA predicate offense, so long as it was distinct
in time from the underlying substantive offenses.
I
Officer Steven Pickel of the City of York Police
Department patrols York’s west end. The west end is a highcrime area known for violent crime, such as homicides,
shootings, drug incidents, and aggravated assaults. York police
“regularly” investigate reports of “shots fired” in the west end,
“especially in the evening.” App. 48.
2
2 a

Case: 19-2940

Document: 54

Page: 3

Date Filed: 06/05/2020

Around 6:00 p.m. on October 31, 2017, Officer Pickel
drove his patrol car along the border between the west end and
York College’s campus. A man in a parked vehicle flagged the
officer down. The man pointed to the only pedestrian on a
bridge. The man said that the pedestrian was “wearing a black
jacket with his hood up, blue jeans, and black sneakers” and
that he pulled out a gun and fired it twice into an old factory
building across the street. App. 48. The man was “adamant”
about this description.1 Id. The pedestrian was later identified
as Torres.
Instead of asking for the man’s name or recording his
license plate number, Officer Pickel immediately radioed for
backup and followed Torres in his patrol car. Officer Pickel
feared that Torres posed a potential danger to others. And he
knew from his training and experience that any delay would
make it very difficult to locate Torres.
As other officers arrived, Officer Pickel activated his
emergency lights and exited his patrol car. Based on the
information that Torres had discharged a firearm, Officer
Pickel drew his service pistol and ordered Torres to “get to the
ground.” App. 71. Torres complied, and two other officers,
including Officer Jonathan Hatterer, approached Torres.
Officer Hatterer knelt and asked Torres if he had a firearm.
According to Officer Hatterer, Torres said that he did and then
indicated that it was in his right pocket. Officer Hatterer
handcuffed Torres while another officer retrieved the firearm.
A grand jury indicted Torres and charged him with
violating 18 U.S.C. § 922(g)(1) by possessing a firearm as a
convicted felon. Torres pleaded not guilty and moved to
suppress the firearm. The District Court denied the motion. It
determined that the officers found the gun in Torres’s
possession during an investigatory stop under Terry v. Ohio,
392 U.S. 1 (1968), rather than during an arrest. It further
concluded that the stop was constitutional because Officer
Pickel had reasonable suspicion to conduct the stop.
The District Court then held a bench trial and found
Torres guilty. The Presentence Investigation Report (“PSR”)
1

Officer Pickel believed that his body camera captured the
encounter, but it malfunctioned.
3
3 a

Case: 19-2940

Document: 54

Page: 4

Date Filed: 06/05/2020

advised that Torres qualified for enhanced sentencing under 18
U.S.C. § 924(e) of the ACCA because he had at least three
prior convictions for serious drug offenses. The PSR identified
two state drug possession convictions, one federal drug
distribution conspiracy conviction, and a felony conviction for
attempted homicide. Torres objected to the enhancement,
arguing that, because the state drug possession offenses were
part of the federal drug distribution conspiracy, the drug
conspiracy conviction should not be counted as a separate
predicate offense. The District Court denied Torres’s
objection, applied the enhancement, and sentenced Torres to
the
mandatory-minimum
sentence:
180
months’
imprisonment. Torres timely appealed.
II2
Torres argues that the officers violated the Fourth
Amendment when they seized him, so the firearm should have
been suppressed. He maintains that the seizure amounted to an
arrest that lacked probable cause. Alternatively, he contends
that even if the seizure were an investigatory stop, Officer
Pickel lacked reasonable suspicion to detain him. We disagree.
Officer Pickel conducted a valid investigatory stop to ensure
officer safety and the safety of the community. And the stop
was supported by reasonable suspicion because Officer Pickel
received a reliable tip.
A
“Generally, for a seizure [of a person] to be reasonable
under the Fourth Amendment, it must be effectuated with a
warrant based on probable cause.” United States v. Robertson,
305 F.3d 164, 167 (3d Cir. 2002) (citing Katz v. United States,
389 U.S. 347, 356–57 (1967)). But a police officer may arrest
a person in a public place without a warrant if the officer
2

The District Court had jurisdiction under 18 U.S.C. § 3231.
We have jurisdiction under 28 U.S.C. § 1291 and 18 U.S.C. §
3742(a). For a motion to suppress, we review factual findings
for clear error and legal conclusions de novo. United States v.
Johnson, 592 F.3d 442, 447 (3d Cir. 2010). We review
challenges to the application of an ACCA enhancement de
novo. United States v. Henderson, 841 F.3d 623, 626 (3d Cir.
2016).
4
4 a

Case: 19-2940

Document: 54

Page: 5

Date Filed: 06/05/2020

possesses probable cause to believe the person committed a
felony. United States v. McGlory, 968 F.2d 309, 342 (3d Cir.
1992) (citing United States v. Watson, 423 U.S. 411, 421
(1976)). Or, “an officer may . . . conduct a brief, investigatory
stop when the officer has a reasonable, articulable suspicion
that criminal activity is afoot.” Illinois v. Wardlow, 528 U.S.
119, 123 (2000) (citing Terry, 392 U.S. at 30).
The Supreme Court has not established a bright-line
rule to distinguish a warrantless arrest from an investigatory
stop. But the “reasonableness of the intrusion is the
touchstone” of our analysis. Baker v. Monroe Township, 50
F.3d 1186, 1192 (3d Cir. 1995) (citing United States v. Sharpe,
470 U.S. 675, 682–83 (1985)). The Supreme Court “ha[s]
emphasized the need to consider the law enforcement purposes
to be served by the stop as well as the time reasonably needed
to effectuate those purposes.” Sharpe, 470 U.S. at 685
(citations omitted). By these standards, Torres was subjected
to an investigatory stop.
To begin, “[t]here is no per se rule that pointing guns at
people, or handcuffing them, constitutes an arrest.” Baker, 50
F.3d at 1193 (collecting cases); see also United States v.
Edwards, 53 F.3d 616, 619 (3d Cir. 1995) (surrounding a
suspect “with weapons ready, and even drawn, does not
constitute an arrest per se”). Terry recognized that when
officers are investigating a suspect who the officers reasonably
believe “is armed and presently dangerous to the officer[s] or
to others, it would . . . be clearly unreasonable to deny the
officer[s] the power to take necessary measures to determine
whether the person is in fact carrying a weapon and to
neutralize the threat of physical harm.” 392 U.S. at 24.
Torres’s case resembles the factual scenario we
encountered in United States v. Johnson, 592 F.3d 442 (3d Cir.
2010). In Johnson, a witness called a 911 dispatcher to report
that she saw two men struggling before hearing a gunshot. Id.
at 445. After the gunshot, the witness watched a white taxicab
depart the scene. Id. A short time later, police spotted a white
taxicab in the vicinity and stopped it. Id. Officers surrounded
the taxicab with guns drawn. Id. at 445–46. They ordered the
occupants out of the car and handcuffed the defendant and the
taxi driver so that they could “safely clear the vehicle and
5
5 a

Case: 19-2940

Document: 54

Page: 6

Date Filed: 06/05/2020

gather information about the [reported] shooting.” Id. at 446.
Officers then discovered a handgun in plain view in the
backseat of the car. Id. Under these facts, we held that the
officers conducted an investigatory stop, not an arrest. Id. at
448.
So, too, here. Officer Pickel received a tip that Torres,
just moments before, had discharged a firearm in a high-crime
area. A brief encounter with police ensued. Only thirty-five
seconds elapsed between the time when Officer Pickel ordered
Torres to stop and when police secured Torres’s firearm.3
Thus, the seizure was an investigatory stop—not an arrest.
B
Because Torres was subjected to an investigatory stop,
we next ask whether the stop was supported by reasonable
suspicion. Wardlow, 528 U.S. at 123. It was.
Reasonable suspicion exists if an officer can “articulate
more than an inchoate and unparticularized suspicion or hunch
of criminal activity.” Id. at 124 (quotation marks and citation
omitted). “Reasonable suspicion requires only a particularized
and objective basis for suspecting criminal activity” based on
“the totality of the circumstances.” United States v. Green, 897
F.3d 173, 183 (3d Cir. 2018) (citations, quotation marks, and
alteration omitted). “We afford significant deference to a law
enforcement officer’s determination of reasonable suspicion.”
United States v. Foster, 891 F.3d 93, 104 (3d Cir. 2018).
Because Officer Pickel acted on an informant’s tip, we
must decide whether the tip was reliable. United States v.
Torres, 534 F.3d 207, 210–11 (3d Cir. 2008). In doing so, we
consider whether: (1) the information was provided to the
police in person, allowing an officer to assess directly the
informant’s credibility; (2) the informant could be held
responsible if his allegations are untrue; (3) the information
would not be available to the ordinary observer; (4) the
3

Torres tries to distinguish Johnson, arguing that Officer
Pickel did not have as much detailed information as the officers
in Johnson. But this goes to whether Officer Pickel had
reasonable suspicion—not whether the encounter amounted to
an arrest.
6
6 a

Case: 19-2940

Document: 54

Page: 7

Date Filed: 06/05/2020

informant had recently witnessed the alleged criminal activity
at issue; and (5) the informant’s information accurately
predicted future activity. United States v. Brown, 448 F.3d 239,
249–50 (3d Cir. 2006).
These factors are not exhaustive, and “a tip need not
bear all of the indicia [of reliability]—or even any particular
indicium—to supply reasonable suspicion.” Torres, 534 F.3d
at 213 (citation omitted). “Other factors can bolster what would
otherwise be an insufficient tip,” including “the presence of a
suspect in a high[-]crime area[.]” Id. at 211 (alteration and
citation omitted). At bottom, we must discern whether the tip
had “sufficient indicia of reliability . . . for us to conclude that
the officers possessed an objectively reasonable suspicion” to
justify the stop. Brown, 448 F.3d at 250 (quoting United States
v. Nelson, 284 F.3d 472, 481 (3d Cir. 2002)).
Based on the Brown factors, the tip was reliable. First,
Officer Pickel interacted with the tipster face-to-face and thus
could assess his credibility. The tipster waved down Officer
Pickel and adamantly explained what he had personally
witnessed. Second, Officer Pickel would likely be able to hold
the man accountable if his allegation were untrue. Although
Officer Pickel did not know the tipster’s name or his car’s
license plate number, he did know what the man looked like
and the make of the car that he drove. Third, the tipster had just
witnessed the alleged criminal activity. See Navarette v.
California, 572 U.S. 393, 400 (2014) (observing that a
statement “made under the stress of excitement caused by a
startling event . . . weigh[s] in favor of the [tipster’s] veracity”).
The fact that Torres was in a high-crime area also favors
reliability. See Torres, 534 F.3d at 211. Shootings were
reported “regularly” in the west end. App. 48. Considering all
the circumstances, and “given . . . the danger posed by an
armed criminal, we think that if [Officer Pickel] had done
nothing and continued on [his] way after receiving the
informant’s tip, [he] would have been remiss.” United States v.
Valentine, 232 F.3d 350, 356 (3d Cir. 2000). In short, Officer
Pickel had reasonable suspicion based on the totality of the

7
7 a

Case: 19-2940

Document: 54

Page: 8

Date Filed: 06/05/2020

circumstances. See Green, 897 F.3d at 183. Thus, Torres’s
Fourth Amendment argument fails.4
III
Torres next argues that he is not subject to the ACCA’s
enhanced mandatory-minimum sentence under § 924(e).
Specifically, he maintains that, because his federal drug
conspiracy conviction encompassed his two state drug
possession convictions, the federal drug conspiracy conviction
cannot count as one of the necessary predicate offenses. We
disagree.
Under the ACCA, a fifteen-year mandatory-minimum
sentence applies to any defendant who violates 18 U.S.C.
§ 922(g)(1) after receiving three or more convictions “for a
violent felony or a serious drug offense, or both, committed on
occasions different from one another[.]” 18 U.S.C. § 924(e)(1)
(emphasis added). To decide whether convictions were
committed on different occasions, we apply the separate
episode test and analyze whether the offenses were “distinct in
time.” United States v. Schoolcraft, 879 F.2d 64, 73 (3d Cir.
1989) (per curiam).
We have held that three robberies carried out in four
days were separate episodes because they “occurred on
separate occasions” “and targeted different geographic
locations and victims[.]” United States v. Blair, 734 F.3d 218,
228–29 (3d Cir. 2013) (quotation marks and citations omitted).
In Blair, we cited with approval the decisions of two other
Courts of Appeals, which held that robbery offenses were
4

Torres faults Officer Pickel for failing to corroborate the tip
before pursuing him. But we will not “second-guess the
officer[’s] decision to pursue the suspect immediately. The
officer[] knew [that] the suspect was still in the vicinity[ ]
and[,] had [the officer] stalled for more lengthy questioning of
the informant, the armed suspect could have escaped
detection.” United States v. Valentine, 232 F.3d 350, 355 (3d
Cir. 2000). Torres also attacks the reliability of the tip because
he claims it came from an anonymous source. The identity of
the source is irrelevant because the tip bore sufficient indicia
of reliability under the totality of circumstances. United States
v. Torres, 534 F.3d 207, 211 (3d Cir. 2008)
8
8 a

Case: 19-2940

Document: 54

Page: 9

Date Filed: 06/05/2020

separate episodes even when committed less than an hour
apart. Id. at 229 (citing United States v. Pope, 132 F.3d 684,
692 (11th Cir. 1998), and United States v. Brady, 988 F.2d 664,
668–70 (6th Cir. 1993) (en banc)).
We have not decided whether a felony conspiracy
conviction qualifies as an ACCA predicate offense when it
encompasses a defendant’s other substantive predicate
convictions. Our sister circuits have unanimously concluded
that it does. For example, in United States v. Melbie, the Eighth
Circuit held that a drug possession offense that occurred
“during the period” of a drug conspiracy offense counted as a
separate ACCA predicate because “the possession offense was
a discrete episode in a series of events.” 751 F.3d 586, 587 (8th
Cir. 2014). The Eleventh and Sixth Circuits have adopted
Melbie’s approach. See United States v. Longoria, 874 F.3d
1278, 1282 (11th Cir. 2017) (per curiam); United States v.
Pham, 872 F.3d 799, 802–03 (6th Cir. 2017).
We agree and hold that a conspiracy offense counts as
an ACCA predicate offense even when it covers other
substantive ACCA predicate offenses, so long as the
conspiracy offense is a “separate episode” that was distinct in
time from the other offenses. See Schoolcraft, 879 F.2d at 73–
74. A defendant’s participation in a conspiracy may be broader
than his underlying ACCA predicate convictions. Thus, the
relevant inquiry is whether a defendant’s underlying
convictions were distinct episodes in the course of conduct
constituting his participation in the drug conspiracy.
We have no difficulty concluding that Torres’s drug
possession offenses were “distinct in time” from his drug
conspiracy offense. Torres’s two state drug possession
offenses occurred in July 2004 and July 2005, respectively. Yet
his involvement in the federal drug conspiracy continued
between July 2004 and February 2006. As Torres admitted
while pleading guilty to the conspiracy charge, he committed
numerous other overt acts: packing and dispensing drugs and
handling money; attempting homicide to recover stolen drugs;
contacting co-conspirators and the ringleader on numerous
occasions; and exercising responsibility over large amounts of
crack cocaine. Thus, Torres’s participation in the conspiracy
was broader than his two drug possession offenses. And rather
9
9 a

Case: 19-2940

Document: 54

Page: 10

Date Filed: 06/05/2020

than withdraw from the conspiracy, he returned to it, even after
his state drug convictions.
*
*
*
For these reasons, we will affirm the District Court’s
judgment.

10
10 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA

:
:
:
:
:
:

v.
MICHAEL E. TORRES,
Defendant

No. 1:17-cr-00392
(Judge Kane)

ORDER
THE BACKGROUND OF THIS ORDER IS AS FOLLOWS:
Before the Court is Defendant Michael E. Torres (“Defendant”)’s motion for
reconsideration (Doc. No. 50), of the Court’s Memorandum and Order issued on September 20,
2018 denying his motion to suppress evidence (Doc. Nos. 48, 49). For the reasons explained
herein, the Court will deny Defendant’s motion.
A.

BACKGROUND

On September 20, 2018, the Court issued a Memorandum (Doc. No. 48), and Order (Doc.
No. 49), denying Defendant’s motion to suppress evidence (Doc. No. 22), on which the Court
held a hearing on July 19, 2018 (Doc. Nos. 33, 44). In the subject Memorandum, the Court
concluded that suppression of evidence was improper under the Fourth Amendment because the
encounter between Defendant and law enforcement forming the basis for the suppression motion
was a valid investigatory or “Terry” stop supported by reasonable suspicion, as opposed to an
arrest, which would have required a showing of probable cause. (Doc. No. 48 at 14-18.)
Accordingly, the Court denied Defendant’s motion to suppress.
In denying Defendant’s motion, the Court reasoned that, as it relates to the nature of the
encounter between Defendant and the police, the police officers’ conduct did not convert the
encounter from an investigatory stop to an arrest. Specifically, the Court noted that “[t]his
11 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 2 of 6

conduct does not turn the encounter into an arrest, for ‘[c]ourts have held that blocking a
suspect’s path, approaching a suspect with weapons down, tackling a suspect, handcuffing a
suspect[,] and placing a suspect in a police car do not necessarily convert a Terry stop into an
arrest.’” (Id. at 14) (second and third alterations in original) (quoting United States v. Colon, 654
F. Supp. 2d 326, 333 (E.D. Pa. 2009)). Further, with respect to whether the stop was supported
by reasonable suspicion, the Court concluded that the tip at issue “bore certain indicia of
reliability” in that: (1) it was conveyed to the police officer “in a face-to-face interaction” that
permitted the police officer to assess the eyewitness’s credibility, and (2) it “was provided by an
eyewitness who recently witnessed the alleged criminal activity.” (Id. at 16.)1 The Court also
reasoned that several other aspects of the circumstances surrounding the stop of Defendant
supported a finding of reasonable suspicion, noting Defendant’s presence in a high-crime area in
the evening on Halloween “shortly before trick-or-treating was to begin” and that “the
eyewitness’s account involved the discharge of a dangerous weapon,” both of which the Court
deemed relevant in determining that reasonable suspicion existed in light of the totality of the
circumstances. (Id. at 17-18.)
Following the Court’s denial of Defendant’s motion to suppress (Doc. No. 22), on
September 20, 2018 (Doc. Nos. 48, 49), Defendant filed the instant motion for reconsideration of
said denial on October 5, 2018 (Doc. No. 50). The Government filed a brief in opposition to
Defendant’s motion on October 17, 2018. (Doc. No. 51.) As the applicable time period for
Defendant to file a reply brief has passed, the motion is fully briefed and, therefore, ripe for
disposition.
1

Moreover, the Court acknowledged that “[a]lthough the tip . . . may not bear all indicia of
reliability recognized within the Third Circuit, ‘no single factor is dispositive or even necessary
to render an informant’s tip reliable.’” (Doc. No. 48 at 16) (quoting United States v. Johnson,
592 F.3d 442, 449 (3d Cir. 2010)).
2

12 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 3 of 6

B.

DISCUSSION

The Federal Rules of Criminal Procedure do not explicitly authorize motions for
reconsideration. See United States v. Dwumaah, No. 1:05-cr-0157, 2013 WL 1233420, at *2
(M.D. Pa. 2013) (citing United States v. Cabrera, 699 F. Supp. 2d 35, 40 (D.D.C. 2009); United
States v. Randall, 666 F.3d 1238, 1241-42 (10th Cir. 2011)). The Supreme Court has, however,
“‘recognized the appropriateness’ of motions for reconsideration in criminal cases.” See id.
(quoting United States v. Healey, 376 U.S. 75, 78 (1964)); see also United States v. Kalb, 891
F.3d 455, 467 (3d Cir. 2018) (reviewing a district court’s denial of a motion for reconsideration
of its ruling on a motion to suppress evidence); United States v. Dupree, 617 F.3d 724, 732-33
(3d Cir. 2010) (exercising appellate jurisdiction over the denial of a motion for reconsideration).
The standard of review associated with motions for reconsideration of interlocutory
orders under the Federal Rules of Civil Procedure has also been applied to such motions filed in
criminal proceedings, and, therefore, the disposition of a motion for reconsideration is within the
discretion of the district court. See Dupree, 617 F.3d 724 at 732 (citing Max’s Seafood Café ex
rel. Lou-Ann, Inc. v. Quinteros, 176 F.3d 669, 673 (3d Cir. 1999)). Because an order denying a
suppression motion is an interlocutory order, reconsideration of such an order “is appropriate
whenever justice so requires.” See, e.g., United States v. King, No. 1:16-cr-321, 2017 WL
3087745, at *2 (M.D. Pa. July 20, 2017) (citing State Nat’l Ins. Co. v. Cty. of Camden, 824 F.3d
399, 406 & n.14 (3d Cir. 2016)) (“Reconsideration of an interlocutory order . . . is more properly
considered under Federal Rule of Civil Procedure 54(b), and is appropriate whenever justice so
requires.”); see also United States v. McMillan, No. 1:15-cr-305, 2018 WL 1035776, at *6 (M.D.
Pa. Feb. 23, 2018) (denying motion for reconsideration of denial of suppression motion because

3

13 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 4 of 6

movant did not “explain why [the] court’s prior decision was erroneous, or why it would be
‘consonant with justice’ to reconsider it” (quoting State Nat’l Ins. Co., 824 F.3d at 406 n.14)).
Defendant contends that reconsideration of the denial of his suppression motion is
warranted because: (1) there was insufficient support for his encounter with police in order for
the encounter to have been permissible under the Fourth Amendment; and (2) the encounter at
issue “exceeded the limits of an investigatory (Terry) stop.” (Doc. No. 50 at 1, 9.) As to the
former point, ostensibly referring to the Court’s earlier conclusion that the police officer’s stop
of Defendant was supported by reasonable suspicion, Defendant states that “reasonable cause”
did not exist so as to render the encounter between law enforcement and Defendant constitutional
for purposes of the Court’s Fourth Amendment analysis. (Id. at 1.) Taking issue with the
Court’s examination of a tip provided to law enforcement prior to Defendant’s encounter with
police, Defendant asserts that an analysis of the relevant factors regarding sufficiency of such a
tip warrants suppression, for “[t]he only factors which cannot be questioned [that weigh against
suppression] are the face-to-face meeting and that the informant claimed to have recently
witnessed the alleged criminal activity[,]” but “that is not enough to plant [Defendant] in the
street, with a knee in his back, handcuff[,] and search him.” (Id. at 9.) With respect to
Defendant’s argument that his encounter with law enforcement went beyond the permissible
scope of a valid investigatory or “Terry” stop, Defendant disputes the Court’s previous
conclusion that the encounter at issue was permissible due to law enforcement’s need “to ensure
the safety of police and those in the surrounding area.” (Id.) (quoting Doc. No. 48 at 15). In
particular, Defendant maintains that the encounter at issue constituted an arrest, rather than an
investigatory stop, for purposes of the Fourth Amendment, and that “[t]he evidence of actual

4

14 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 5 of 6

danger to the public [in the case at bar] is too scant to override the protections of the Fourth
Amendment.” (Id. at 10-11.)
As it relates to the Court’s conclusion regarding reasonable suspicion, the Government
argues, inter alia, that while Defendant discusses “a number of factors [related to the
eyewitness’s tip] that bear on whether the stop was justified . . . at least four of those factors
support the validity of the stop[,]” including: (1) that the tip at issue was a “face-to-face” tip;
(2) that “at the time the information was provided, it was reasonable to believe that the
eyewitness could be held accountable for fabricated allegations”; (3) that “the information
related to an event recently witnessed”; and (4) that “the suspect was in a high-crime area.”
(Doc. No. 51 at 9.) Moreover, the Government notes that, “[i]n any event, the factors . . . are
neither exhaustive nor required.” (Id.) With respect to the Court’s conclusion that Defendant
was subjected to an investigatory stop, as opposed to an arrest, the Government states that the
Court’s determination is consistent with relevant precedent holding that handcuffing an
individual does not necessarily convert a stop into an arrest (id. at 2-3), as well as “case law
clearly establishing that permissible Terry stops can extend beyond a mere ‘stop and talk’” (id. at
7).
Having considered the parties’ arguments, its Memorandum denying Defendant’s motion
to suppress (Doc. No. 48), and the standard applicable to the instant motion, as articulated supra,
the Court concludes that Defendant has not met his burden in demonstrating that reconsideration
of the Court’s decision as to his suppression motion is proper. While Defendant alleges the
existence of several infirmities in the Court’s reasoning as to both its determination regarding
reasonable suspicion and its conclusion that the encounter constituted an investigatory stop,
Defendant appears to use the instant motion merely to re-litigate issues previously briefed by the

5

15 a

Case 1:17-cr-00392-YK Document 53 Filed 11/01/18 Page 6 of 6

parties and examined by the Court prior to its disposition of his motion to suppress, and in turn,
“attempt[s] to convince the [C]ourt to rethink a decision it has already made[,]” which is a
purpose for which “[a] motion for reconsideration is not a proper vehicle.” See Williams v.
Standard Fire Ins. Co., 892 F. Supp. 2d 615, 624 (M.D. Pa. 2012). In addition, to the extent that
Defendant asserts certain hypothetical policy-related arguments regarding police practices in
support of his motion (Doc. No. 50 at 10), the Court views such arguments as insufficient for
purposes of the instant motion before the Court, and concludes that Defendant has failed to show
“why this [C]ourt’s prior decision was erroneous, or why it would be ‘consonant with justice’ to
reconsider it.” See McMillan, 2018 WL 1035776, at *6.
AND SO, on this 1st day of November 2018, IT IS ORDERED THAT Defendant’s
motion for reconsideration (Doc. No. 50), is DENIED.

s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

6

16 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
MICHAEL E. TORRES,
Defendant

:
:
:
:
:
:

No. 1:17-cr-00392
(Judge Kane)

MEMORANDUM
Before the Court is Defendant Michael E. Torres (“Defendant”)’s motion to suppress
evidence pursuant to the Fourth Amendment to the United States Constitution. (Doc. No. 22.)
For the reasons explained herein, the Court will deny the motion.
I.

BACKGROUND
A.

Factual Background1

On October 31, 2017, minutes before the scheduled 6:00 p.m. start of trick-or-treating for
the children of York, Pennsylvania on Halloween evening, Officer Steven Pickel (“Officer
Pickel”), a patrol officer employed by the York City Police Department, was on routine patrol in
the west end neighborhood of York. (Doc. No. 44 at 4: 1-25, 5: 1-3.) The west end is a highcrime area and, in Officer Pickel’s assessment, experiences “a lot of drug incidents, shooting
incidents, homicides, aggravated assaults, burglaries, [and] robberies.” (Id. at 5: 24-25, 6: 1-2.)
As a patrol officer, Officer Pickel regularly “receive[s] reports of shots fired in the west end
area” (id. at 6: 7-8), and during the months of October and November, he receives “reports of
shots fired . . . multiple days per week” (id. at 6: 19-22). While a nearby neighborhood known as

1

Unless otherwise noted, the facts recited herein are derived from the transcript of the
suppression hearing held by the Court on July 19, 2018. (Doc. No. 44.) During the suppression
hearing, the Court heard testimony from Officer Pickel (“Officer Pickel”), Officer Jonathan
Hatterer (“Officer Hatterer”), and Defendant.
17 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 2 of 19

the college area also experiences a high level of crime, that criminal activity consists largely of
“burglaries, vehicle thefts, [and other] things of that nature.” (Id. at 5: 20-23.)
A few minutes before 6:00 p.m., just as the sun was going down, in a neighborhood of
York that “bridges the gap between the college area and the west end” (id. at 7: 10-13), Officer
Pickel traveled west on King’s Mill Road and “turned north onto South Penn Street” (id. at 7: 2021). As he turned the corner to proceed north onto South Penn Street, he encountered “a male in
a black car” who “threw . . . both his arms out the window” to flag down Officer Pickel, and did
so in an excited manner.2 (Id. at 7: 20-24, 58: 1-9.) The eyewitness’s hand gestures caused
Officer Pickel to think “that he was trying to flag [him] down to speak with [him].” (Id. at 8: 13.) Upon being confronted by the eyewitness, Officer Pickel stopped to talk to the eyewitness
from his police vehicle, as the eyewitness “had his window rolled down where he had his hands
out.” (Id. at 8: 11-13.) Officer Pickel recalled that the eyewitness “was an older black
gentleman” with “a salt-and-pepper beard” who was wearing “a black peacoat type jacket.” (Id.
at 8: 15-17.) As to his conversation with the eyewitness, Officer Pickel testified as follows:
He told me – so he pointed and told me that – there was a male that was walking
on the bridge, which was the east side of the bridge. He was the only pedestrian
on the bridge. And he told me that that male, who was wearing a black jacket
with his hood up, blue jeans, and black sneakers, pulled a gun out of his, out of
like – like, off his person and fired it twice into the old factory building which is
across the street on the west side.
(Id. at 8: 19-25, 9: 1.) Officer Pickel further testified that he confirmed with the eyewitness that
he was referring to the individual walking on the bridge, and that the eyewitness was “adamant”
that this individual had “fired two rounds” into the building. (Id. at 42: 11-17.) Officer Pickel
subsequently identified the man to whom the eyewitness was referring as Defendant. (Id. at 9:
17-18.)
2

The Court refers to this man as “the eyewitness” herein.
2

18 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 3 of 19

Officer Pickel then “radioed to county control” for assistance, knowing that at that time
of the day, there were not “as many people out in the street that would be able to help right away,
so [he] got on the radio to get more units to get [police officers] out of the station to come
assist.” (Id. at 9: 21, 10: 2-5.) At this point, Officer Pickel began to follow Defendant – who
was walking – from his patrol vehicle. (Id. at 10: 6-7.) Officer Pickel testified that before he
began to follow Defendant, he did not ascertain the eyewitness’s name or the license plate
number of the vehicle the eyewitness was driving. (Id. at 10: 9-15.)3 Observing that for the
duration of his conversation with the eyewitness, Defendant continued to walk “to the other side
of the bridge and then Stone Avenue” (id. at 10: 18-20), Officer Pickel stated that “based on [his]
training and experience, if you allow people to get too far away . . . [Defendant] could have
gotten down breezeways [and] cut back through the little cuts that are all over the city where it
would have been difficult to locate him if he did start to run away or cut down through one of
those other . . . areas” (id. at 10: 25, 11: 1-6). Based on the information conveyed to him by the
eyewitness, Officer Pickel viewed Defendant as potentially dangerous and “felt that was
imperative to make sure that [the police] figured out what was going on and make sure nobody
got hurt.” (Id. at 11: 9-15.)4 Officer Pickel further noted that “because [he] was the only officer
in the immediate area at that time, [he] felt it most important to make sure” that he “kept [his]
eyes on [Defendant] instead of going immediately over [to the building], because if [he] would
have gotten out of the patrol vehicle to look for shell casings or damage, then [Defendant] would
have been long gone by then.” (Id. at 12: 22-25, 13: 1-2.)
3

Officer Pickel also testified that he did not ask the eyewitness for his address or phone number.
(Id. at 28: 16-19.)
4
Officer Pickel testified that he believed his conversation with the eyewitness had been recorded
through his police body camera located on his chest. (Id. at 11: 16-24, 12: 1-16.) As discussed
during the suppression hearing, however, the conversation with the eyewitness was not captured
by Officer Pickel’s recording device. (Id. at 28: 9-11.)
3

19 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 4 of 19

While being followed by Officer Pickel, Defendant continued walking at a casual pace
and proceeded “north on the east side of South Penn Street.” (Id. at 15: 23-25.) Officer Pickel
continued to follow Defendant in his patrol vehicle while he informed other police units of his
and Defendant’s respective locations and waited until more units were “in the area to attempt to
stop [Defendant] and see what was going on.” (Id. at 15: 1-4.) Officer Pickel waited for
assistance from additional units due to the report that Defendant “fired a firearm into a building”
and that, in light of such information, it was possible that “there would have been somebody near
the building” at risk of being shot. (Id. at 15: 8-13.) Officer Pickel also stated that based on such
possibilities, “it was for the sake of officer safety and the safety of others around in the area” to
ensure that “enough units [were] available to basically surround the subject and make sure that
everything . . . was contained.” (Id. at 15: 19-23.) As he followed Defendant, Officer Pickel
noted that Defendant had seen him.5 (Id. at 16: 5-8, 18-25.) In addition, the eyewitness
subsequently “drove up next to” Officer Pickel, whose driver’s side window was up, and
appeared to mouth something to Officer Pickel, who “wasn’t sure what it was” that was being
communicated. (Id. at 17: 5-12.) At this time, Officer Pickel “was trying to stay focused on
where [Defendant] was and what he was going, so [he] motioned for . . . [the eyewitness] to
continue [driving] . . . because if something were to happen, [he] didn’t want [the eyewitness] to
be caught in the middle of it.” (Id. at 17: 13-17.) Officer Pickel thought that he would have been
able to speak with the eyewitness later, as he “actually expected [the eyewitness] to stay back at
the intersection of King’s Mill and Penn Street, where he was on Penn Street” and, therefore,
Officer Pickel “was actually surprised to see him roll up right next to [him] while [he] was on

5

Officer Pickel noted that after his patrol vehicle’s brakes squeaked, Defendant turned around
and observed him, and that “to be truthful, [he] thought the gig was up there, but [Defendant] just
maintained walking.” (Id. at 16: 3-8.)
4

20 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 5 of 19

South Penn Street[,]” noting that he “motioned [for the eyewitness] to continue, because [he]
didn’t want him to be right in the middle of the incident.” (Id. at 23: 23-25, 24: 1-3.) The dash
camera in Officer Pickel’s patrol vehicle then began recording.6 (Id. at 17: 18-22.)
As Officer Pickel approached South Penn Street from Princess Street and arrived at the
edge of the intersection, he “activated [his] emergency lights, which automatically activates the
in-car camera.” (Id. at 18: 10-12.) Officer Pickel then decided to stop Defendant after
“hear[ing] officers tell [him] that they were coming around the corner . . . onto Penn Street”;
observing “two units coming around the corner”; and knowing that another officer “was coming
down Princess Street and was about one block off.” (Id. at 18: 23-25, 19: 1-2.) At this point,
Officer Pickel could see that Defendant “was approaching the edge of the intersection” and
because there were “three units in the back and one in the front” and “believ[ing] there might
have been a second one coming from Princess Street, as well, [he] believed . . . [there were]
enough units in the area to handle the situation.” (Id. at 19: 3-8.)7 Upon exiting his vehicle,
Officer Pickel drew his service weapon and ordered Defendant to the ground (id. at 19: 17-22),
testifying that he drew his service weapon and instructed Defendant to get on the ground
“[b]ecause at that point [he] knew, or at least [he] thought [he] knew, based on the information
given to [him], that [Defendant] had a firearm and that he discharged it” (id. at 19: 25, 20: 1-2).
Not knowing “what [Defendant’s] plan was to do upon police arriving on scene[,]” Officer
Pickel “thought that the best course of action for officer safety and those around [him] was to
draw [his] firearm and match the potential force that [he] would face.” (Id. at 20: 5-9.)

6

The video footage captured by Officer Pickel’s dash camera was played during the suppression
hearing. (Id. at 18: 5.)
7
Officer Pickel testified that he did not lose sight of Defendant for the duration of these events.
(Id. at 19: 13-16.)
5

21 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 6 of 19

Two additional police officers – Officer Hatterer and Officer Hooper – assisted Officer
Pickel in his encounter with Defendant at the intersection. (Id. at 21: 20-25, 22: 1-6.) Officer
Pickel testified that Officer Hatterer appeared to approach Defendant and “put his knee down
onto [Defendant’s] back” (id. at 21: 24-25) before placing Defendant in handcuffs (id. at 22: 12). A firearm was then recovered from Defendant’s person. (Id. at 22: 7-9.) Officer Pickel
stated that he was unsure which officer recovered the firearm from Defendant, but he knew that
after a verbal exchange between Defendant and the police, Defendant “was placed in handcuffs
and a firearm was recovered from his person.” (Id. at 22: 12-16.) The firearm was loaded, with
one round in the chamber and seven located in the magazine. (Id. at 22: 17-21.) After the
firearm was recovered, it “was cleared and made safe by Officer Hooper, who . . . then gave [it]
to [Officer Pickel] in a manila envelope.” (Id. at 22: 17-25.) Defendant was then placed in the
back of Officer Pickel’s patrol vehicle. (Id. at 22: 25, 23: 1.) Further, after providing Defendant
with Miranda warnings, Officer Pickel asked Defendant whether “he had a license to carry a
firearm,” and Defendant replied that he did not. (Id. at 23: 5-6.) Defendant also informed
Officer Pickel that he possessed the firearm for protection. (Id. at 23: 6-7.) Officer Pickel’s
review of county records subsequently revealed that the firearm had been reported stolen. (Id. at
23: 9-18.)
B.

Procedural Background

On July 19, 2018, a federal grand jury returned a single-count indictment charging
Defendant with possession of a firearm by a previously-convicted felon in violation of 18 U.S.C.
§§ 922(g)(1) and 924(e). (Doc. No. 1.) Following the return of the indictment, an arrest warrant
was issued as to Defendant on December 13, 2017 (Doc. No. 4), and Defendant entered a plea of
not guilty as to the aforementioned charge on December 19, 2017 (Doc. No. 12). On April 9,

6

22 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 7 of 19

2018, Defendant filed a motion to suppress evidence under the Fourth Amendment to the United
States Constitution. (Doc. No. 22.) The Court held a suppression hearing on July 19, 2018.
Defendant submitted a brief in support of his motion prior to the hearing. (Doc. No. 23.)
Following the hearing, the Government filed a brief in opposition on July 31, 2018 (Doc. No.
46), to which Defendant filed a brief in reply on August 14, 2018 (Doc. No. 47). Having been
fully briefed, Defendant’s motion is ripe for disposition.
II.

LEGAL STANDARD
The Fourth Amendment to the United States Constitution prohibits unreasonable searches

and seizures. See U.S. CONST. amend. IV (articulating “[t]he right of the people to be
secure . . . against unreasonable searches and seizures”). “A ‘seizure’ occurs when, ‘taking into
account all of the circumstances surrounding the encounter, the police conduct would have
communicated to a reasonable person that he was not at liberty to ignore the police presence and
go about his business.’” United States v. Wrensford, 866 F.3d 76, 85 (3d Cir. 2017) (quoting
Florida v. Bostick, 501 U.S. 429, 437 (1991)). “Generally, for a seizure to be reasonable under
the Fourth Amendment, it must be effectuated with a warrant based on probable cause.” United
States v. Robertson, 305 F.3d 164, 167 (3d Cir. 2002) (citing Katz v. United States, 389 U.S.
347, 356-57 (1967)). “On a motion to suppress, the government bears the burden of showing
that each individual act constituting a search or seizure under the Fourth Amendment was
reasonable.” United States v. Ritter, 416 F.3d 256, 261 (3d Cir. 2005) (citing United States v.
Johnson, 63 F.3d 242, 245 (3d Cir. 1995)).
“Under the exception to the warrant requirement established in Terry, however, ‘an
officer may, consistent with the Fourth Amendment, conduct a brief, investigatory stop when the
officer has a reasonable, articulable suspicion that criminal activity is afoot.’” United States v.

7

23 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 8 of 19

Torres, 534 F.3d 207, 210 (3d Cir. 2008) (quoting Illinois v. Wardlow, 528 U.S. 119, 123
(2000)). “Any evidence obtained pursuant to an investigatory stop (also known as a ‘Terry stop’
or a ‘stop and frisk’) that does not meet this exception must be suppressed as ‘fruit of the
poisonous tree.’” United States v. Brown, 448 F.3d 239, 244 (3d Cir. 2006) (quoting Wong Sun
v. United States, 371 U.S. 471, 487-88 (1963)). Although a “Terry” stop requires only
reasonable suspicion, a de facto arrest must be supported by probable cause. See United States
v. Johnson, 592 F.3d 442, 447-48 (3d Cir. 2010) (citing United States v. Sharpe, 470 U.S. 675,
685 (1985)).
In determining whether a law enforcement officer has acted with reasonable suspicion,
“due weight must be given, not to his inchoate or unparticularized suspicion or ‘hunch,’ but to
the specific reasonable inferences which he is entitled to draw from the facts in light of his
experience.” See Terry v. Ohio, 392 U.S. 1, 27 (1968). “Reasonable suspicion is more than ‘a
mere hunch . . . [but] considerably less than . . . a preponderance of the evidence, and obviously
less than . . . probable cause.” United States v. Green, 897 F.3d 173, 183 (3d Cir. 2018)
(alteration in original) (quoting Navarette v. California, 572 U.S. 393, 397 (2014)). “Reasonable
suspicion is a less demanding standard than probable cause not only in the sense that reasonable
suspicion can be established with information that is different in quantity or content than that
required to establish probable cause, but also in the sense that reasonable suspicion can arise
from information that is less reliable than that required to show probable cause.” Alabama v.
White, 496 U.S. 325, 330 (1990). Like probable cause, reasonable suspicion “is dependent upon
both the content of information possessed by police and its degree of reliability[,]” and “[b]oth
factors – quantity and quality – are considered in the ‘totality of the circumstances’ – the whole
picture.’” Id. (quoting United States v. Cortez, 449 U.S. 411, 417 (1981)).

8

24 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 9 of 19

Pursuant to Terry v. Ohio and its progeny, law enforcement officers may “briefly detain
an individual based upon ‘articulable suspicion’ and then [] perform a limited protective
‘patdown’ for weapons during that detention ‘where a police officer observes unusual conduct
which leads him reasonably to conclude in light of his experience that criminal activity may be
afoot.’” See United States v. Navedo, 694 F.3d 463, 467 (3d Cir. 2012) (quoting Terry, 392 U.S.
at 30). Courts have acknowledged that “[i]n certain circumstances, it can be difficult to
distinguish between a Terry stop, which requires only reasonable suspicion, and a de facto arrest,
which must be supported by probable cause.” See United States v. Johnson, 592 F.3d 442, 44748 (3d Cir. 2010) (citing United States v. Sharpe, 470 U.S. 675, 685 (1985)); see also Gresh v.
County, Civil Action No. 1:15-cv-1466, 2016 WL 1162320, at *4 (M.D. Pa. Mar. 24, 2016)
(“The line between a Terry stop and a de facto arrest may be difficult to discern.”).
The United States Court of Appeals for the Third Circuit has recognized, however, that
“the vast majority of courts have held that police actions in blocking a suspect’s vehicle and
approaching with weapons ready, and even drawn, does not constitute an arrest per se.” See id.
at 448 (quoting United States v. Edwards, 53 F.3d 616, 619 (3d Cir. 1995)). Additionally, “[n]or
does placing a suspect in handcuffs while securing a location or conducting an investigation
automatically transform an otherwise-valid Terry stop into a full-blown arrest.” Id. (citing Baker
v. Monroe Twp., 50 F.3d 1186, 1193 (3d Cir. 1995)). In determining whether an encounter is a
Terry stop or a de facto arrest, “[t]he ‘reasonableness of the intrusion is the touchstone’ of the
inquiry, in that ‘the need of law enforcement officials’ must be balanced against ‘the burden on
the affected citizens.’” See Gresh, 2016 WL 1162320, at *4 (quoting Baker, 50 F.3d at 1192).
Indeed, “the Supreme Court recognized that ‘it would be unreasonable to require that police

9

25 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 10 of 19

officers take unnecessary risks in the performance of their duties.’” See Johnson, 592 F.3d at
448 (quoting Terry, 392 U.S. at 24).
“[P]robable cause is a fluid concept – turning on the assessment of probabilities in
particular factual contexts – not readily, or even usefully, reduced to a neat set of legal rules.”
Illinois v. Gates, 462 U.S. 213, 232 (1983). As noted by the United States Court of Appeals for
the Third Circuit, the applicable standard is:
whether, at the moment the arrest was made, the officers had probable cause to
make it – whether at that moment the facts and circumstances within their
knowledge and of which they had reasonably trustworthy information were
sufficient to warrant a prudent man in believing that the [defendant] had
committed or was committing an offense.
United States v. Burton, 288 F.3d 91, 98 (3d Cir. 2002) (quoting Beck v. Ohio, 379 U.S. 89, 91
(1964)). Although “this standard ‘requires more than mere suspicion . . . it does not require that
the officer have evidence sufficient to prove guilt beyond a reasonable doubt.” Id. (citing Orsatti
v. N.J. State Police, 71 F.3d 480, 482-83 (3d Cir. 1995)). Further, probable cause may exist
“even in the absence of the actual observance of criminal conduct when a prudent observant
would reasonably infer that a defendant acted illegally.” Id. (citing Gates, 462 U.S. at 243 n.13).
In the context of tips provided to law enforcement, courts examine specific
considerations in determining whether such tips may give rise to reasonable suspicion or
probable cause. In Alabama v. White, the Supreme Court examined the sufficiency of an
anonymous tip with respect to both reasonable suspicion and probable cause and, in doing so,
“stressed two factors: (1) an officer’s ability to corroborate significant aspects of the tip, and
(2) the tip’s ability to predict future events.” See United States v. Roberson, 90 F.3d 75, 77 (3d
Cir. 1996) (explaining the reasoning articulated in White as it relates to the sufficiency of
anonymous tips). “[I]f a tip has a relatively low degree of reliability, more information will be
required [to render the encounter constitutional] than would be required if the tip were more
10

26 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 11 of 19

reliable.” Alabama v. White, 496 U.S. at 330. In assessing the reliability of a tip, courts look to
certain factors, including whether:
(1) The tip information was relayed from the informant to the officer in a face-toface interaction such that the officer had an opportunity to appraise the witness’s
credibility through observation[;]
(2) The person providing the tip can be held responsible if her allegations turn out
to be fabricated[;]
(3) The content of the tip is not information that would be available to any
observer[;]
(4) The person providing the information has recently witnessed the alleged
criminal activity [and]
(5) The tip predicts what will follow, as this provides police the means to test the
informant’s knowledge or credibility[.]
United States v. Torres, 534 F.3d at 211 (quoting United States v. Brown, 448 F.3d at 249-50).
Additionally, “[o]ther factors can bolster what would otherwise be an insufficient tip, such as
‘[the p]resence of a suspect in a high crime area . . . [a] suspect’s presence on a street at a late
hours . . . [a] suspect’s nervous, evasive behavior, or flight from police, [and] a suspect’s
behavior ‘that conforms to police officers’ specialized knowledge of criminal activity.’” See id.
(second, third, and fourth alterations in original) (quoting Brown, 448 F.3d at 251).
III.

DISCUSSION
Defendant argues that any evidence obtained from his encounter with police should be

suppressed because he was subjected to a warrantless arrest unsupported by probable cause.
(Doc. No. 23 at 2.) Accordingly, the Court first addresses the issue of whether the encounter
between Defendant and law enforcement constituted an investigatory stop, or rather, a de facto
arrest, before turning to the question of whether the encounter violated the Fourth Amendment.
A.

Arguments of the Parties

11

27 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 12 of 19

1.

Defendant’s Arguments in Favor of Suppression

Defendant argues that suppression of physical evidence is warranted because he was
“seized and arrested without probable cause based upon a tip from an informant who then
vanished.” (Doc. No. 23 at 4.) According to Defendant, “Officer Pickel was speaking to the
unknown tipster within one to two minutes of shots being allegedly fired directly in front of the
unknown tipster[,]” although Officer Pickel did not hear any shots being fired, smell any
gunpowder, or “conduct any investigation prior to putting [Defendant] on the ground and
arresting him.” (Doc. No. 47 at 3.) Defendant also argues that “minimal investigation would
have shown that there was no evidence that any gun had been fired other than the ‘tip’” (id. at 5),
and that “[t]he tip did not provide any predictive information” but, rather, “was basically
anonymous and uncorroborated” (id.). Defendant argues that, therefore, “[t]here was no
investigation or circumstance to support a finding of probable or reasonable cause.” (Id. at 8.)
Further, Defendant contends that “[t]he Supreme Court has explained that an arrest
occurs when officers either apply physical force or when a person submits to the assertion of
authority” and that “[b]oth of these criteria were met when [the officers involved] ordered
[Defendant] to the ground and he complied.” (Id. at 10-11) (citing California v. Hodari D., 499
U.S. 621, 624-25 (1991)). To that end, Defendant states that “[u]nder no circumstances is being
splayed out, face down in the middle of the street, with an officer on your lower back, a ‘casual
encounter’ or an investigative Terry stop.”8 (Id. at 11.) Defendant thus argues that the relevant
facts are more appropriately characterized as an arrest based on an “uncorroborated anonymous
tip.” (Id.)

8

In addition, Defendant asserts that “[e]ven without a knee in the back, [the encounter involving
Defendant] is an arrest because no one would feel free to leave” and, therefore, “[t]he seizure
was more than a brief investigatory stop as defined by Terry.” (Doc. No. 47 at 11.)
12

28 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 13 of 19

2.

The Government’s Arguments Against Suppression

The Government argues that suppression of evidence is improper because: (1) “[t]he
initial seizure of [Defendant] was an investigatory stop and not an arrest”; and (2) “[r]easonable
suspicion supported the investigatory stop.” (Doc. No. 46 at 12, 16.) In support of the former
argument, the Government states that “[a]lthough [Defendant] was certainly under arrest at the
point when he was placed in the back of Officer Pickel’s vehicle (which was after the firearm
was recovered from his person), his initial encounter with police . . . was an investigatory stop.”
(Id. at 13.) According to the Government, “[b]y that point in time, [Defendant] had been
directed to go to the ground and Officer Pickel had his service weapon drawn” and “[n]either fact
transformed the encounter into an arrest.” (Id. at 13.) The Government maintains that under
relevant precedent, the officers’ actions with respect to Defendant were not so invasive as to
amount to an arrest, noting that “Officer Hatterer . . . did not apply handcuffs until after
[Defendant] stated that he had a gun, which corroborated the eyewitness’s account and justified
an arrest.” (Id. at 14.) Additionally, noting that “it would be unreasonable to require that police
officers take unnecessary risks in the performance of their duties” (id. at 15) (citing Terry, 392
U.S. at 23), the Government states that “the officers’ actions were necessary for the safety of
themselves and possible bystanders[,]” in light of “the eyewitness’s account that [Defendant]
was armed and had discharged his weapon”; Defendant’s presence “in a high-crime area as trickor-treating was about to begin;” and the location of several businesses nearby. (Id.)
As to its second argument in opposition to Defendant’s motion – that the investigatory
stop of Defendant was supported by reasonable suspicion – the Government contends that the tip
provided by the eyewitness was sufficiently reliable so as to establish reasonable suspicion,
stating that “[t]he eyewitness, in a face-to-face interaction with police, provided particularized

13

29 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 14 of 19

information about [Defendant]” and, therefore, was not anonymous. (Id. at 17.) Further, the
Government argues that “[i]t is immaterial that officers did not ultimately identify the witness[,]”
for “[t]he witness’s reliability was instead supported by the fact that he ‘was exposed to
retaliation from [Defendant] and knew that the officers could quickly confirm or disconfirm the
tip; and the officers could assess [his] credibility as he spoke, knew what [he] looked like, and
had some opportunity to find [him] if the tip did not pan out.’” (Id. at 18) (fourth, fifth, and sixth
alterations in original) (quoting United States v. Valentine, 232 F.3d 350, 355 (3d Cir. 2000)).
Further, the Government rebuffs any “suggest[ion] that Officer Pickel should have concluded
that the eyewitness . . . made a split-second decision to flag down the officer and fabricate a story
about [Defendant]” on the basis that “[t]he Constitution does not compel such irrationality,
especially by police officers, who are charged with making rapid decisions that directly impact
public safety.” (Id. at 19.)
B.

Whether the Encounter Constituted an Investigatory Stop or an Arrest

Upon consideration of the evidence presented at the suppression hearing, the Court
concludes that the officers involved performed a valid Terry stop of Defendant and, therefore,
Defendant did not undergo a de facto arrest for purposes of the Fourth Amendment. As
demonstrated by the video footage of Defendant’s encounter with the police, Defendant was
ordered to show his hands and get on the ground, and did so immediately, and was then
physically restrained by police and handcuffed before the firearm was recovered, after which
point he was placed in the police vehicle. This conduct does not turn the encounter into an
arrest, for “[c]ourts have held that blocking a suspect’s path, approaching a suspect with weapons
drawn, tackling a suspect, handcuffing a suspect[,] and placing a suspect in a police car do not
necessarily convert a Terry stop into an arrest.” See United States v. Colon, 654 F. Supp. 2d

14

30 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 15 of 19

326, 333 (E.D. Pa. 2009) (citing Sharpe, 470 U.S. at 678). Moreover, the Court notes Officer
Pickel’s testimony that he drew his weapon and ordered Defendant to get on the ground out of a
concern “for officer safety and [the safety of] those around [him]” in light of the information
relayed to him about Defendant’s potential possession of a firearm. (Doc. No. 44 at 20: 1-9.)
Such concerns have been deemed valid for purposes of concluding that an encounter did not
extend beyond a Terry stop and amount to an arrest. See, e.g., Colon, 654 F. Supp. 2d at 333
(concluding that officers’ use of a taser on a defendant did not “raise [the] confrontation to an
arrest” and reasoning that “[b]oth [o]fficers suspected the [d]efendant was carrying contraband
and, for their own safety and the safety of others in the neighborhood, did not want to pursue the
[d]efendant through dimly lit streets”); see also United States v. Goode, 309 F. App’x 651, 654
(3d Cir. 2009) (finding that officers’ restraint of a defendant did not amount to an arrest where
the defendant “was suspected of dealing drugs, a crime with which ‘weapons and violence are
frequently associated’” (quoting United States v. Bustos-Torres, 396 F.3d 935, 943 (8th Cir.
2005))). Based on Officer Pickel’s assessment that such detention of Defendant was necessary
to ensure the safety of the police and those in the surrounding area, and noting that Defendant
was suspected of shooting a firearm into a nearby building, the Court finds that the actions taken
by the officers constituted “reasonable steps to ensure that the scene was secure before
investigating further.” See Johnson, 592 F.3d at 448. Accordingly, the Court concludes that
Defendant was detained pursuant to an investigative stop, as opposed to an arrest, and, therefore,
turns to an examination of whether the stop was supported by reasonable suspicion.
C.

Whether the Stop was Supported by Reasonable Suspicion

Upon consideration of the totality of the circumstances, the Court concludes that the
investigatory stop of Defendant was supported by reasonable suspicion and, consequently, did

15

31 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 16 of 19

not violate the Fourth Amendment. As an initial matter, although “an anonymous tip that a
person has a gun, without additional corroboration, lacks the indicia of reliability needed to
justify a stop under the reasonable suspicion standard . . . an anonymous tip can be the basis for
reasonable suspicion if accompanied by specific indicia of reliability.” See United States v.
Holloway, 489 F. App’x 591, 593 (3d Cir. 2012). In the case at bar, the tip conveyed by the
eyewitness to Officer Pickel bore certain indicia of reliability. First, the tip was relayed to
Officer Pickel in a face-to-face interaction such that Officer Pickel “had an opportunity to
appraise the [eyewitness’s] credibility through observation.” See Brown, 448 F.3d at 250
(quoting United States v. Nelson, 284 F.3d 472, 480 (3d Cir. 2002)). Indeed, Officer Pickel
testified that the eyewitness “seemed like he wanted to talk to [him]” (Doc. No. 44 at 58: 8-9),
and noted that he “was taken aback” by being flagged down by the eyewitness because such an
encounter was unusual (id. at 58: 23-25). Officer Pickel also found the eyewitness’s account
credible after he pointed to Defendant on the bridge and confirmed with the eyewitness that he
was referring to Defendant, highlighting that the eyewitness “was adamant.”9 (Id. at 9: 8-16.)
Second, the tip was provided by an eyewitness who recently witnessed the alleged criminal
activity, as demonstrated by Officer Pickel’s account of his conversation with the eyewitness,
which affords the tip greater weight for purposes of the instant analysis. See Brown, 448 F.3d at
249-50. Although the tip provided by the eyewitness may not bear all indicia of reliability
recognized within the Third Circuit, “no single factor is dispositive or even necessary to render
an informant’s tip reliable.” See Johnson, 592 F.3d at 449. Accordingly, upon consideration of
the totality of the circumstances, the Court finds that the tip provided by the eyewitness to
9

Officer Pickel also believed his conversation with the eyewitness had been recorded (Doc. No.
44 at 11: 16-18), which lends support to the Court’s conclusion that Officer Pickel was able to
ascertain the credibility of the eyewitness – who could have been subsequently identified, had
the encounter actually been recorded – and that the tip was sufficiently reliable.
16

32 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 17 of 19

Officer Pickel was sufficiently reliable so as to establish reasonable suspicion supporting the
investigatory stop of Defendant.10
Moreover, even if the tip were considered unreliable for purposes of the Fourth
Amendment, there are other factors that “if observed by police,” may “corroborate an otherwise
insufficient tip,” including, inter alia, the suspect’s presence in a high-crime area. See Brown,
448 F.3d at 251 (citing Wardlow, 528 U.S. at 124). Officer Pickel testified that he considered
the area at issue to be a high-crime area, and noted specifically that in the west end, the police
receive reports of “incidents of shots fired regularly, especially in the evening.” (Doc. No. 44 at
6: 5-6.) In addition, Officer Pickel testified that he was unable to question the eyewitness and
monitor Defendant’s movements simultaneously (id. at 10: 17-20), and that “based on [his]
training and experience” he had concluded that it was possible for Defendant, whom he
considered potentially dangerous based on the eyewitness’s account, to evade law enforcement
(id. at 11: 1-15).11
Further, the encounter occurred in the evening on Halloween, shortly before trick-ortreating was to begin. Given that the eyewitness’s account involved the discharge of a dangerous
weapon on a night when more members of the community were expected to be outside, it is
10

Additionally, to the extent Defendant testified that on the date in question, he had taken a
different path that was situated next to the bridge (Doc. No. 44 at 77: 8-16), such testimony does
not bear on the Court’s reasoning as to whether the stop was supported by reasonable suspicion.
Even if the Court were to credit such testimony, it is undisputed that the eyewitness informed
Officer Pickel that Defendant was walking on the bridge, and the appropriate inquiry is not
whether Defendant had actually committed the alleged criminal conduct, but, rather, upon
consideration of the totality of the circumstances, whether Officer Pickel possessed an
objectively reasonable suspicion to support the stop based on the information conveyed to him
by the eyewitness. See, e.g., Johnson, 592 F.3d at 449.
11
It also bears noting that at the time Officer Pickel received the tip from the eyewitness and
followed Defendant, the sun was setting (Doc. No. 44 at 57: 17-19), which weighs in favor of
finding reasonable suspicion, in light of the safety risks inherent in possibly pursuing a suspect in
the dark. See, e.g., Colon, 654 F. Supp. 2d at 333 (noting safety concerns presented by
“pursu[ing] the [d]efendant through dimly lit streets”).
17

33 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 18 of 19

possible that if Officer Pickel “had done nothing and continued on [his] way after receiving the
[eyewitness’s] tip, [he] would have been remiss,” for the public is “entitled to be free from fear
of victimization and have police investigate . . . shootings.” See Valentine, 232 F.3d at 357. It
follows that under these circumstances, the Court will not “second-guess” Officer Pickel’s
decision to pursue and ultimately stop Defendant. See id. at 355 (concluding that it would be
inappropriate “to second-guess the officer’s decision to pursue the suspect immediately” when
the officers “knew the suspect was still in the vicinity, and had they stalled for more lengthy
questioning of the informant, the armed suspect could have escaped detection”). The Court finds
that in such a scenario, Officer Pickel “did not have time to ask for details without risking
[Defendant’s] disappearance,” which lends support to the conclusion that under the totality of the
circumstances, there was reasonable suspicion to stop Defendant.12 See United States v.
Robertson, 305 F.3d at 170. Lastly, the fact that the tip concerned a firearm is significant, for the
Third Circuit has indicated that a tip involving guns could suffice to establish reasonable
suspicion in light of the inherent interest in public safety involved in investigating such tips. See
United States v. Roberson, 90 F.3d at 81 n.4. Accordingly, upon consideration of the totality of
the circumstances, the Court concludes that the investigatory stop of Defendant was supported by
reasonable suspicion and, consequently, did not violate the Fourth Amendment.

12

In a similar vein, the Court finds that it would not have been feasible for Officer Pickel to
examine the area for shell casings prior to following Defendant, as the Court finds credible
Officer Pickel’s testimony that Defendant was walking “further and further away” and “because
[he] was the only officer in the immediate area at the time, [he] felt it most important to make
sure [he] kept [his] eyes on [Defendant].” (Doc. No. 44 at 12: 22-25.)
18

34 a

Case 1:17-cr-00392-YK Document 48 Filed 09/20/18 Page 19 of 19

IV.

CONCLUSION
For the reasons stated above, Defendant’s motion to suppress (Doc. No. 22), will be

denied. An appropriate Order follows.
s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

19

35 a

